OFFICE OF INSPECTOR GENERAL


AUDIT OF USAID/YEMEN’S
COMMUNITY LIVELIHOODS
PROJECT

AUDIT REPORT NO. 6-279-14-001-P
OCTOBER 7, 2013




CAIRO, EGYPT
Office of Inspector General




October 7, 2013

MEMORANDUM

TO:                   USAID/Yemen Mission Director, Herbie Smith

FROM:                 Regional Inspector General, Catherine M. Trujillo /s/

SUBJECT:              Audit of USAID/Yemen’s Community Livelihoods Project
                      (Report No. 6-279-14-001-P)


This memorandum transmits our final report on the subject audit. We have considered your
comments on the draft report and included them, without attachments, in Appendix II.

The final report contains nine recommendations to help USAID/Yemen improve its Community
Livelihoods Project. In its comments on the draft report, USAID/Yemen generally agreed with all
nine recommendations. Based on our evaluation of the management comments, we
acknowledge that the mission made a management decision on all recommendations and has
taken final action on Recommendations 3, 5, and 7.

Please provide the Office of Audit Performance and Compliance Division with the necessary
documentation to achieve final action on Recommendations 1, 2, 4, 6, 8 and 9.

Thank you for the cooperation and courtesy extended to the audit team during this audit.




U.S. Agency for International Development
USAID Office Building
1/A Nady El-Etisalat St., off El-Laselki St.
New Maadi
Cairo, Egypt
http://oig.usaid.gov
CONTENTS 

Summary of Results ................................................................................................................... 1 


Audit Findings............................................................................................................................. 5 


     Project Did Not Make Much Progress in Its First 20 Months................................................... 5 


     Mission Was Slow to Formalize Changes ............................................................................... 7 


     Third-Party Monitoring Was Not Integrated Well Into Project Oversight ................................. 8 


     Quality of Deliverables Was Inconsistent................................................................................ 9 


     Data Were Unreliable and Reporting Systems Were Broken ............................................... 11 


     Mission’s Funds Control System Was Not Precise ............................................................... 11 


Evaluation of Management Comments................................................................................... 13 


Appendix I—Scope and Methodology .................................................................................... 15 


Appendix II—Management Comments ................................................................................... 17 


Appendix III—Map of Activities Implemented ........................................................................ 21 

SUMMARY OF RESULTS 

Yemen ranks as one of the world’s poorest countries and one with a high population growth
rate.1 This combination is placing a serious strain on its already limited resources. Adding to
these challenges, Yemen has endured political strife and secessionist movements since the
1960s, which have hurt safety and stability.

These conditions drove USAID/Yemen to launch the Community Livelihoods Project to mitigate
the causes of instability in Yemen. On July 1, 2010, the mission signed a 5-year, $124 million
cooperative agreement with Creative Associates International Inc. to carry out the project.
Creative was to implement a variety of activities across Yemen to increase employment
opportunities, promote community participation, strengthen local governance, and improve
access to quality services, particularly in health and education. As of March 31, 2013,
approximately $59.5 million had been obligated and $50.7 million disbursed for the project.

The project ran into problems early. Beginning in January 2011, widespread demonstrations
rippled throughout a number of Middle Eastern countries in what later became the “Arab
Spring.” The demonstrations sparked a revolution in Yemen that ended the 33-year rule of
President Ali Abdullah Saleh. A new president took office on February 25, 2012, a date that the
audit team and many other people mark as the end of the revolution in Yemen.

The Regional Inspector General/Cairo (RIG/Cairo) conducted this audit as part of its fiscal year
2013 audit plan. Because of the revolution and the sweeping effects it had on the country and
the project, the audit divided its analysis into two periods: pre-revolution (July 1, 2010, to
February 2012) and post-revolution (March 2012 to March 2013). RIG/Cairo conducted this
audit to answer two questions:

1. 	 What was the status of USAID/Yemen’s Community Livelihoods Project through the end of
     Yemen’s revolution?

2. 	 Has USAID/Yemen made adjustments to the Community Livelihoods Project since Yemen’s
     revolution to improve project performance?

Overall, the project has delivered mixed results. In response to the first question, the audit
determined that the project made limited progress in its first 20 months (page 5). It was delayed
from the beginning because USAID/Yemen was slow to introduce the project to various officials
in the Yemeni Government. The revolution and subsequent personnel evacuations continued to
postpone progress. After the revolution, the project encountered additional delays as staffing
and security challenges arose.

In response to the second question, the audit determined that USAID/Yemen did make a
number of adjustments to improve and focus the project, creating some notable results. Officials
from Yemen’s Ministry of Agriculture and Irrigation told the audit team they were extremely
pleased with the assistance that USAID/Yemen was providing, particularly the activities related
to pest control and illustrative farming plots. The team visited a cooperative farm, shown in the

1
  The UN’s Human Development Report 2013 ranks Yemen 160 of 186 countries in terms of overall
human development. According to the CIA’s World Factbook, Yemen has the 30th highest growth rate out
of 232 countries.


                                                                                                  1
photos below, where the project installed a greenhouse, drip irrigation system, solar-powered
water pump, and rainwater harvesting system. Feedback from beneficiaries was positive,
including a farmer who reported that the mission’s interventions helped him double his farm’s
production this season.




       A Yemeni cooperative farm now has a greenhouse (left), solar-powered water pump
       (upper right), and irrigation system (bottom left), thanks to a USAID/Yemen project.
       (Photos by RIG/Cairo, May 2013)

We also saw some signs of success at a school the project rehabilitated, shown in the photos
below.




       The Al-Jeel Al-Jadeed School in Sana’a needed major renovations. (Photos above
       and below by Creative Associates International Inc.)




                                                                                               2
       USAID/Yemen’s project has renovated the school’s classrooms and stairwells,
       thus making it a more inviting place to learn.

Despite these successes and changes, the audit identified a number of problems with the
project.

	 USAID/Yemen was slow to formalize changes (page 7). Seven months after the mission
   scaled back activities, it had not modified the cooperative agreement to reflect the changes.

	 Third-party monitoring was not integrated well into the mission’s oversight of the project
   (page 8). The mission was not using findings from the monitoring service to improve the
   project.

	 The quality of deliverables was inconsistent (page 9). Creative’s internal control and
   monitoring system was not strong enough to make sure all the goods were delivered and in
   working order.

	 Data were unreliable and reporting systems were broken (page 11). The project’s data were
   managed in four different systems, and information in them differed.

	 The mission’s funds control system was not precise (page 11). USAID/Yemen did not have
   a method to confirm that all the funds were used correctly.

To address these problems and to strengthen the effectiveness of the Community Livelihoods
Project, this report includes nine recommendations. We recommend that USAID/Yemen:

1. 	 Finalize its approach for the remainder of the Community Livelihoods Project by formally
     modifying the cooperative agreement (page 8).

2. 	 Require Creative to update its project and performance management plans to reflect the
     changes in the modification (page 8).

3. 	Perform a documented review of its standard operating procedures with the Yemen
    Monitoring and Evaluation Project, and if necessary, amend the procedures to improve the
    communication of key findings (page 9).

4. 	 Require Creative to implement a performance management plan that includes the Yemen
     Monitoring and Evaluation Project’s role, authorities, and responsibilities as a third-party


                                                                                               3
   monitor for the Community Livelihoods Project, as outlined in the mission’s procedures
   (page 9).

5. 	 Require Creative to update its performance management plan to include a control system to
     validate the delivery of goods (page 10).

6. 	Require Creative to update its performance management plan to clearly delineate its
    responsibility for monitoring project activities and reporting findings in an accurate, timely
    fashion (page 11).

7. 	Require Creative to improve its data reporting by consolidating the data system,
    implementing a procedure manual to formalize data collection, and implementing a data
    validation system (page 11).

8. 	 Deobligate funds associated with activities eliminated from the project (page 12).

9. 	 Conduct a written analysis to determine whether the project would benefit from creating a
     new funds control system. If so, it should implement the system to track funds for the
     remainder of the project (page 12).

The details of our audit findings are in the sections below. The audit’s scope and methodology
are described in Appendix I. Our evaluation of management comments is included on page 13,
and the full text of management comments, without attachments, is included in Appendix II.




                                                                                                4
AUDIT FINDINGS 

Project Did Not Make Much
Progress in Its First 20 Months
When the project’s cooperative agreement was signed, USAID expected to spend $124 million;
$76.2 million of that—nearly 62 percent of the budget—was to go directly toward funding
stabilization activities throughout Yemen. According to the original plan, the project was
supposed to implement at least 2,100 activities over 5 years, about 1,000 of them during the
first 2.

The audit determined that the project fell well short of its plans. By the end of the revolution in
February 2012, after 20 months of operation the project had initiated only 150 activities and was
not on track to reach its interim goal of 1,000. A series of events hurt the project’s ability to
follow the plan.

Slow Start-up. The project experienced significant delays from the onset because
USAID/Yemen and Creative were unable to meet with ministries and governorates to inform
them about the new project. To maintain strong relationships between USAID and the Yemeni
Government, the mission director felt that it was important to introduce this new project to the
Yemeni counterparts before initiating activities.
This introductory period was built into the project’s original plan and was supposed to last for
only 2 weeks. However, it lasted approximately 6 months, as meetings with the various Yemeni
stakeholders were delayed.

Revolution and Evacuations. During this period of unrest, a number of nongovernmental
organizations and members of the international community evacuated from the country,
including key people from USAID/Yemen and Creative. USAID/Yemen’s midterm evaluation
report estimated that the evacuations caused the project to lose approximately 6 months’ worth
of work time.

Staffing and Security Challenges. According to Creative, security conditions in Yemen made
it difficult to attract suitable employees. Additionally, security problems made it increasingly
difficult to travel in the country to implement community projects.

This period of limited progress had a number of unanticipated effects on the project. Most
importantly, large sums of money were being spent just to maintain Creative’s operations in the
first 20 months. As shown in the graph on the next page, during this time activity support costs
consistently outstripped direct activity expenses. According to our analysis of Creative’s
financial information, by the time the revolution ended in February 2012, the project only spent
25.5 percent ($4.8 million) of $18.7 million on grants, subawards, and direct implementation.2




2
    These are activities implemented by Creative.



                                                                                                 5
                          Figure 1. Expenses From July 2010 to February 2012 (Unaudited)
     $3.0M

     $2.5M

     $2.0M

     $1.5M

     $1.0M

     $0.5M

     $0.0M
                       August‐10


                                                  October‐10




                                                                                                        February‐11
             July‐10


                                   September‐10




                                                                                                                                                     June‐11


                                                                                                                                                                         August‐11
                                                               November‐10
                                                                             December‐10
                                                                                           January‐11


                                                                                                                      March‐11




                                                                                                                                                                                                    October‐11
                                                                                                                                 April‐11




                                                                                                                                                                                                                                                          February‐12
                                                                                                                                            May‐11


                                                                                                                                                               July‐11


                                                                                                                                                                                     September‐11


                                                                                                                                                                                                                 November‐11
                                                                                                                                                                                                                               December‐11
                                                                                                                                                                                                                                             January‐12
                       Total expenses                                               Expenses on grants, subawards, and direct implementation
   Source: Creative Associates International Inc.

Despite spending almost 75 percent of project funds on costs related to start-up and operations,
Creative was still not well prepared. The midterm evaluation concluded that while the revolution
affected progress, it did not provide sufficient basis for the project’s failure to develop the
systems and staff necessary for success. The evaluation described the grants system as an
“inexcusable failure” and said the monitoring and evaluations system was “just not acceptable
after 18 months.” The audit agreed with this assessment and noted that Creative was still
struggling to finish its monitoring and evaluations system nearly 3 years after the project started.

To improve the efficiency of the project, USAID/Yemen directed Creative to institute a number of
key changes. It installed a new grants management system, which was more capable of
managing a project of this scale. It brought in new leadership. In addition, Creative started to
implement more activities itself, rather than issuing subgrants to other organizations to complete
work.

Additionally, the mission adjusted the project’s approach and strategy. According to
USAID/Yemen, the project lacked focus, and its initial activities were too small and
geographically dispersed to bring about lasting change. As such, the mission, in consultation
with the State Department and USAID’s Administrator, decided to focus project activities on
certain sectors and functions, and directed activities to more populated areas to maximize their
effects (Appendix III has maps of the areas covered before and after the revolution). The project
also increased its coordination with various ministries, aligning its interventions with the Yemeni
Government’s priorities. According to Creative’s chief of party, this important adjustment
improved the reach and speed of the project.

Because of these changes, the project steadily improved its operations, as shown in Figure 2 on
the next page. After the end of the revolution, the project increased its efficiency and


                                                                                                                                                                                                                                                                        6
implemented 95 projects totaling $15.5 million. During this period, Creative spent 60 percent of
its expenses on grants, subawards, and direct implementation, compared with 25.5 percent
before the end of the revolution.

                       Figure 2. Expenses From March 2012 to March 2013 (Unaudited)
    $3.5M

    $3.0M

    $2.5M

    $2.0M

    $1.5M

    $1.0M

    $0.5M

    $0.0M
            March‐12


                       April‐12


                                  May‐12


                                           June‐12


                                                     July‐12


                                                               August‐12


                                                                           September‐12


                                                                                          October‐12


                                                                                                       November‐12


                                                                                                                     December‐12


                                                                                                                                   January‐13


                                                                                                                                                February‐13


                                                                                                                                                              March‐13
             Total expenses                   Expenses on grants, subawards, and direct implementation

  Source: Creative Associates International Inc.

Overall, the project did not make much progress in its first 20 months, and this report does not
offer recommendations for this finding because they would have had limited relevance to the
project with all of its changes. In contrast, the remainder of the report includes
recommendations to address the audit’s second question of whether these changes improved
project performance.

Mission Was Slow to Formalize
Changes
USAID’s Automated Directives System (ADS) 202.3.6.3 states that missions must adjust
projects when conditions warrant. According to the policy, changes may include “developing an
entirely new project and instrument, or simply modifying and changing existing projects or
activities.” The agreement officer and, if appropriate, general counsel should be consulted as
soon as possible when a mission considers changes that may affect a legal agreement. While
ADS 304.3.4.e allows USAID to direct certain elements of a cooperative agreement, ADS
303.3.11 states that only the agreement officer has the authority to make major changes to a
project description and budget.

Despite this guidance, USAID/Yemen was slow to get the agreement officer’s authority to make
these changes and started to decrease the scope without formally modifying the cooperative
agreement. According to the annual plan updated in March 2013, the project had already ended
activities in one sector and was poised to conclude activities in two more, as outlined in the



                                                                                                                                                                         7
following schedule:

1.   Governance – activities concluded in October 2012
2.   Economic Growth – completion of activities in 2013
3.   Health – completion of activities in 2013
4.   Agriculture – negotiation on the continuation beyond June 2013
5.   Education – a plan for continuation beyond June 2013

This plan differed greatly from the project’s strategy of implementing an “integrated set of
activities bringing together programs for health, education, economic growth, agriculture and
governance.” At conclusion of the audit fieldwork and 7 months after the project ended work in
the governance sector, mission officials still had not formally modified the cooperative
agreement to reflect this change.

The mission attributed this lapse to the revolution. With the fast-paced changes sweeping the
nation, the mission and Creative had trouble developing a clear, unified approach to
stabilization. The delay continued because the mission wanted to wait until it finalized its country
development strategy before formalizing changes with the agreement officer.

Significantly reducing the scope of the project before the agreement officer has formally
authorized the actions could lead to a number of negative effects. It could result in Creative
moving forward on activities intended for closure or revision and disrupt implementation. It could
also create the opportunity for miscommunication with Creative; the chief of party said the
organization was confused about the mission’s vision for the project because changes were
made frequently and informally in meetings. A formal modification to the cooperative agreement
may quell this ambiguity.

Last, without an official decision about whether to end activities in governance, economic
growth, and health, Creative has no formal direction for these sectors. According to Creative’s
financial information, the audit estimates that nearly $24,000 in salaries could be saved per
month when USAID/Yemen makes the formal determination to end those activities. To address
this problem, we make the following recommendations.

     Recommendation 1. We recommend that USAID/Yemen finalize its approach for the
     remainder of the Community Livelihoods Project by formally modifying the cooperative
     agreement.

     Recommendation 2. We recommend that USAID/Yemen require Creative Associates
     International Inc. to update its project and performance management plans to reflect the
     changes in the modification.

Third-Party Monitoring Was Not
Integrated Well Into Project Oversight
USAID recognizes the risks associated with working in high threat environments. In such
situations, ADS 202.3.6.4 permits missions to use third party-monitoring methods as a basis for
approving deliverables and performance reports.

Although USAID/Yemen had in place the Yemen Monitoring and Evaluation Project (YMEP), a
third party charged with monitoring project activities, the monitoring services were not integrated



                                                                                                  8
well in the mission’s oversight of the project. When YMEP identified potential problems, these
issues were not being brought to the attention of appropriate mission officials in an effective,
timely manner. For example, when YMEP found that some substandard medical equipment was
delivered (discussed on page 9), key mission officials did not know about it until at least
8 months after YMEP issued its report.

USAID/Yemen did not integrate YMEP well because its role, function, and authority as the
mission’s third-party monitor was not clearly defined from the onset of the project. According to
the cooperative agreement, Creative was to have a “close and cooperative relationship” with
YMEP, but exactly how the two were to work together was not spelled out. The project’s
subsequent performance management plans never expanded YMEP’s role either. Also missing
were clearly defined procedures to ensure that important matters from the third-party monitoring
reports were being brought to the attention of key mission personnel.

As an extension of USAID/Yemen’s oversight of the Community Livelihoods Project, YMEP
should have been seamlessly integrated into the mission’s monitoring practices. Without clear
procedures on how to do that, the mission is not maximizing the benefits from the monitoring
team’s work and runs the risk of learning about potential problems while there could be time left
to resolve them. Additionally, not defining the third-party monitor’s role can create a tense
working relationship between the implementing partner and the monitoring team. Both groups
have already reported that their relationship was strained because they cannot agree on the
team’s role and authority.

To improve USAID/Yemen’s use of YMEP’s ability to monitor the Community Livelihoods
Project, we recommend the following.

   Recommendation 3. We recommend that USAID/Yemen perform a documented review
   of its standard operating procedures with the Yemen Monitoring and Evaluation Project
   and, if necessary, amend the procedures to improve the communication of key findings.

   Recommendation 4. We recommend that USAID/Yemen require Creative Associates
   International Inc. to implement a performance management plan that includes the
   Yemen Monitoring and Evaluation Project’s role, authorities, and responsibilities as third-
   party monitors for the Community Livelihoods Project, as outlined in the mission’s
   procedures.

Quality of Deliverables Was
Inconsistent
The quality of the USAID’s interventions is of utmost importance for USAID, and one of the
project’s principle goals was to increase access to quality services in Yemen. However, despite
this goal, the project ran into a number of problems with some of its activities.

Health Sector. One of the project’s activities was to provide medical and laboratory equipment
to a local health center in the capital of Sana’a. During the audit, the team learned that the
center reported significant problems with the quality and completeness of the medical
equipment it received. According to YMEP’s monitoring report, 7 of the 50 items delivered
differed from what Creative ordered. The center’s director said none of the items delivered had
warrantees and user manuals, and some arrived in poor condition. YMEP also reported that a
$4,800 electric generator was not installed and remained unused for months.



                                                                                                 9
Education Sector. During a number of site visits, mission employees found that some school
rehabilitation projects in the south were not done well; some of the materials used were of
unacceptably poor quality, and some of the recently installed fixtures were already falling apart,
as shown in the photos below.




       Work done on these school bathrooms has not held up well. (Photos by
       USAID/Yemen)

These problems happened because Creative did not have strong internal controls for
procurements. The organization did not validate the delivery of goods at the point of receipt.
Instead, Creative sent items it procured directly to delivery locations without having the staff or
the mission check to make sure orders were complete and equipment was in working order.

Secondly, Creative did not have a strong monitoring system that kept the mission abreast of
potential issues. Both the mission and YMEP identified gaps in Creative’s monitoring practices
when it did not follow up on activities. In the schools discussed above, Creative did not identify
the quality issues prior to the mission’s impromptu visit. The audit studied all of Creative’s
quarterly progress reports and noted that it did not report quality concerns to the mission
regularly—suggesting that either Creative was unaware of problems or chose not to report
them.

Without having a quality control system to validate the delivery of goods, USAID/Yemen could
be subject to fraud and waste, and may be providing substandard items to beneficiaries. As a
result, these items may be left unused or may need to be replaced immediately. Moreover, if
substandard goods are indeed delivered, USAID’s reputation could be damaged. Luckily, in the
case of the substandard medical equipment, Creative reported that the faulty vendor corrected
the order and assumed the replacement costs.

Additionally, Creative’s ineffective monitoring practices put the mission at risk of not being able
to address problems quickly and take corrective measures to improve the project during
implementation. Because of the vulnerabilities associated with Creative’s inadequate internal
controls and monitoring systems, we recommend the following.

   Recommendation 5. We recommend that USAID/Yemen require Creative Associates
   International Inc. to update its performance management plan to include a control
   system to validate the delivery of goods.



                                                                                                10
   Recommendation 6. We recommend that USAID/Yemen require Creative Associates
   International Inc. to update its performance management plan to clearly delineate its
   responsibility for monitoring project activities and reporting findings in an accurate, timely
   fashion.

Data Were Unreliable and Reporting
Systems Were Broken
ADS 203.3.11.1 outlines the importance of maintaining high quality data. To help performance
monitoring and reporting, the data collected ought to be accurate and should have safeguards
to minimize the risk of manipulation or transcription errors.

Despite this guidance, the data the project reported were inaccurate and susceptible to human
error. The information in Creative’s database for three randomly selected indicators did not
match the supporting documentation. In one case, the project incorrectly transcribed
2,707 beneficiaries as 2,747. The team also found a transcription error in Creative’s
December 2012 quarterly update; the implementer reported that mobile medical teams in the
Shabwah governorate provided services to 2,317 beneficiaries, but the project’s signed
supporting document listed only 2,137.

The root cause for such inconsistent, unreliable data was Creative’s poor monitoring and
evaluations system. At the time of the audit, the data were kept in four separate systems:
binders, a Microsoft Excel spreadsheet, a Microsoft Access database, and YMEP’s online
database. The systems were not integrated properly as data from the different systems failed to
match, and none of the systems could be considered the main one.

Furthermore, Creative did not effectively separate reporting duties to help verify data accuracy;
the monitoring and evaluations department was responsible for consolidating, reporting, and
validating data. Creative also did not have a system of checking the accuracy of reported
achievement totals, which led to under- and over-reporting.

Without a strong data collection and validation system, information reported to the mission may
not be reliable and could lead to making bad decisions. Moreover, with inaccurate data,
USAID/Yemen is misrepresenting the project’s outcomes. To help improve the data quality, we
make the following recommendation.

   Recommendation 7. We recommend that USAID/Yemen require Creative Associates
   International Inc. to improve its data reporting by (1) consolidating the data system,
   (2) implementing a procedure manual to formalize data collection, and (3) implementing
   a data validation system.

Mission’s Funds Control System
Was Not Precise
The U.S. Government requires federal agencies to establish an effective funds control system to
make sure funds are used only for authorized purposes. Congressional earmarks are used
regularly to direct funds for specified activities. As a recipient of congressional funds, USAID
must follow parameters set forth under the direction of Congress and adhere to the earmarks.




                                                                                                    11
The Agency has guidelines to make sure its activities adhere to these rules. In the case of
health programs, USAID published a mandatory reference for ADS 200, “Guidance on the
Definition and Use of the Global Health Programs Account,” to help verify that global health
program funds are “used for the purpose for which they are appropriated by . . . adhering to . . .
congressional earmarks and directives.” Similar guidance is offered for activities in other
sectors, including education and governance.

Despite this guidance, USAID/Yemen could not confidently report that it was using all of its
project funds according to their specified purposes and directives. Moreover, given the
information provided by both USAID/Yemen and Creative, we could not determine whether
there was a funds control violation.

The mission did not have a control system capable of tracking exactly how each funding stream
was being spent for this multimillion dollar project; by December 2012, the project had already
received money from 47 funding streams, originating from 13 different activity areas. Because
the project crossed multiple sectors, the lack of such a system made it difficult for the mission to
trace activities to the funds that financed them.

USAID approved Creative to receive payment using a letter of credit. In general, when using a
letter of credit, the Agency issues payments by withdrawing funds in the order in which they
were added to the project instead from specific funding streams.

Using this type of system, USAID/Yemen did not have sufficient oversight in the payment
process to accurately track whether funds were being used according to their intended
purposes. As a result, funds intended for a specific sector, such as governance, may have been
temporarily used to finance an activity in a different sector, such as education, because the
governance funds were next in line to be withdrawn.

This complication could lead to using funds improperly, a risk that is more pronounced because
of the project’s plan to end work in some sectors. Therefore, if funds intended for activities in the
governance sector were indeed used to temporarily finance an education activity, the project
would not have an opportunity to replenish them because all work in the governance sector has
already ended. As a result, USAID/Yemen may be unintentionally spending earmarked funds for
purposes different from lawmakers’ intent. Without a strong funds control system, the mission
cannot track its funds properly and cannot accurately answer congressional inquiries on how
earmarks are used.

To help be certain that project funds are being used properly, we make the following
recommendations.

   Recommendation 8. We recommend that USAID/Yemen deobligate funds associated
   with activities eliminated from the project.

   Recommendation 9. We recommend that USAID/Yemen conduct a written analysis to
   determine whether the project would benefit from creating a new funds control system. If
   so, it should implement the system to track funds for the remainder of the project.




                                                                                                  12
EVALUATION OF MANAGEMENT
COMMENTS
In its comments on the draft report, USAID/Yemen generally agreed with all
nine recommendations. Based on our evaluation of management comments on our draft report,
we acknowledge management decisions for all recommendations. Final action has been taken
on Recommendations 3, 5, and 7, and they are closed upon issuance of the audit report. A
detailed evaluation of the comments follows.

Recommendation 1. The mission agreed to finalize its approach for the remainder of the
project and formally modify the cooperative agreement. It is negotiating with Creative to modify
the final 2 years. The modification will include a reduction in the total estimated cost of the
agreement to reflect the two remaining sectors the project will focus on: agriculture (1 year) and
education (2 years). The mission anticipates that the modification will be completed by
October 18, 2013. Based on the mission’s comments, we acknowledge that it made a
management decision on Recommendation 1.

Recommendation 2. The mission will require Creative to update its project and performance
management plans to reflect the changes in the modification. The mission reported that when it
finalizes the modification, Creative will update the plan within 30 days and submit it for approval.
The mission anticipates getting the revised plan by November 18, 2013. Based on the mission’s
comments, we acknowledge that it made a management decision on Recommendation 2.

Recommendation 3. The mission performed and documented its review of its standard
operating procedures with YMEP. Based on the review, YMEP modified the procedures with a
focus on disseminating key findings quickly and accurately. The revised procedure was issued
effective September 18, 2013. Based on the mission’s comments and supporting documentation
provided, we acknowledge that the mission made a management decision and final action has
been taken on Recommendation 3.

Recommendation 4. The mission agreed for Creative to implement a performance
management plan that includes YMEP’s role, authorities, and responsibilities as third-party
monitor. Moreover, mission officials said they thought this recommendation would be useful for
all implementing partners and as such, asked YMEP to develop standard operating procedures
clarifying its role with the implementing partners when developing and implementing their
performance management plans. The written procedures have been completed and the
standardized plan format for USAID/Yemen is under review. These procedures will be
integrated into the project by November 18, 2013. Based on the mission’s comments, we
acknowledge that it made a management decision on Recommendation 4.

Recommendation 5. The mission agreed to have Creative update its performance
management plan to include a control system to validate the delivery of goods. In response,
Creative modified its purchase order procedures for the acceptance of goods and services to
include completion of an inspection and acceptance report prepared by qualified technical staff
(e.g. medical professionals and construction engineers) to confirm that items meet the required
standards, as well as to reject those that are not adequate. Based on the mission’s comments




                                                                                                 13
and supporting documentation provided, we acknowledge that the mission made a management
decision and final action has been taken on Recommendation 5.

Recommendation 6. The mission agreed to require Creative to update its performance
management plan to clearly delineate its responsibility for monitoring project activities and
reporting findings in an accurate, timely fashion. In response, Creative’s monitoring and
evaluation unit corrected its data collection and storage system. It will include this process as
part of its updated performance management plan, which will be submitted by November 18,
2013. Based on the mission’s comments, we acknowledge that it made a management decision
on Recommendation 6.

Recommendation 7. The mission agreed to require Creative to improve its data reporting by
consolidating the data system, implementing a procedure manual to formalize data collection,
and implementing a data validation system. In response, Creative finalized a new data collection
and management system that consolidates the data system and implemented a procedure
manual to formalize data collection, reporting, and validation processes. The mission approved
the manual on September 28, 2013. Based on the mission’s comments and supporting
documentation provided, we acknowledge that the mission made a management decision and
final action has been taken on Recommendation 7.

Recommendation 8. The project’s activities in economic development and health will end in
September 2013 and October 2013 respectively. The mission agreed to work with the project to
deobligate any funds leftover by December 31, 2013. Based on the mission’s comments, we
acknowledge that it made a management decision on Recommendation 8.

Recommendation 9. The mission agreed to conduct a written analysis to determine whether
the project would benefit from creating a new funds control system. It is working with the
agreement officer to modify the agreement to include procedures for a new funds control
process that requires a contractor to include the correct funding source upon submitting each
invoice, and to ask USAID/Washington’s Letter of Credit Office to use the funding mentioned in
the invoice. Finally, at the end of the project the mission will coordinate with Cairo and
Washington to reconcile the previous disbursements. The mission anticipates that this
modification will be completed by October 18, 2013. Based on the mission’s comments, we
acknowledge that it made a management decision on Recommendation 9.




                                                                                              14
                                                                                      Appendix I



SCOPE AND METHODOLOGY
Scope
RIG/Cairo conducted this audit in accordance with generally accepted government auditing
standards. Those standards require that we plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and conclusions based on
our audit objective. We believe the evidence obtained provides that basis.

The purpose of this audit was to answer two questions:

1. 	 What was the status of USAID/Yemen’s Community Livelihoods Project through the end of
     Yemen’s revolution?

2. 	 Has USAID/Yemen made adjustments to the Community Livelihoods Project since Yemen’s
     revolution to improve project performance?

The audit was performed in Yemen from May 18 through May 30, 2013, and covered activities
from the project’s start on July 1, 2010, through March 31, 2013. As of March 31, 2013,
approximately $59.5 million had been obligated and $50.7 million disbursed. The audit tested
the amounts by comparing financial data from the Agency’s accounting system with the various
letter of credit payments.

The team conducted site visits with beneficiaries in the agriculture, education, and health
sectors. We assessed the project’s significant controls related to implementation, reporting, and
review of performance measures and indicators. We also reviewed and assessed the internal
controls in place to monitor project activities, including the site visit reports, monitoring and
evaluation data systems, and procedures.

Methodology
To answer the audit objective, we first gained an understanding of what USAID/Yemen intended
to accomplish through its Community Livelihoods Project. We did this by reviewing important
project documentation such as the cooperative agreement, project modifications, annual work
plans, and financial data.

To put Yemen’s political environment into context, we researched news about the revolution and
conducted interviews to learn about the complexities of working in a country experiencing such
a change.

The audit started its fieldwork by reviewing the project’s grants management database. The
team analyzed the various grants administered in different periods. Next, the audit team
compared the activities with the amount of money the project spent. We did a detailed financial
analysis to reconcile financial data from USAID/Yemen and Creative.

To answer the audit objective and analyze the performance of the project, the audit team
interviewed mission staff, individuals from Creative, embassy employees, beneficiaries, and
Yemeni Government officials to gain an understanding of the project. Interviews were followed
up with a limited number of site visits to validate that activities were completed and of


                                                                                              15
                                                                                        Appendix I


acceptable quality. We visited the Al-Jeel Al-Jadeed School in Sana’a, a demonstration farm
plot also in Sana’a, and an implementer of the project’s midwives activity.

Because of the security situation in Yemen, the audit team selected site visits according to the
accessibility of the location. Such a limited sample cannot be projected to represent activities in
other areas of the country. For these activities, the team relied on reporting from the mission’s
third-party monitors. Auditors reviewed their reports and interviewed the team. Findings from the
third-party monitors were verified with mission staff who also conducted similar site visits.




                                                                                                16
                                                                                   Appendix II



MANAGEMENT COMMENTS 



October 3, 2013

MEMORANDUM

TO:           Catherine M. Trujillo, Regional Inspector General

FROM:         Herbie Smith, USAID/Yemen Mission Director \s\

SUBJECT:      Management Comments to Draft Audit Report No. 6-279-13-0XX-P


Thank you for affording the USAID/Yemen Mission an opportunity to respond to the draft audit
of USAID/Yemen’s Community Livelihoods Project (CLP), implemented by Creative
Associates International Inc. USAID/Yemen has reviewed the audit findings and
recommendations and we are working diligently to address the weaknesses identified in the
report. Specifically, we have responded to the nine recommendations outlined in the draft OIG
audit report dated August 7, 2013, by taking the following action or actions:

RECOMMENDATIONS AND ACTIONS:

1.	 RECOMMENDATION: Finalize its approach for the remainder of the Community
    Livelihoods Project by formally modifying the cooperative agreement.

   	 RESPONSE: Negotiations are currently ongoing between USAID and Creative to
      modify the final two years of the agreement. The modification will include a reduction in
      the total estimated cost of the agreement to reflect the two remaining sectors (from
      previous five sectors) on which CLP will focus: agriculture (one year) and education (two
      years). It is anticipated that the modification will be completed by October 18, 2013.

2.	 RECOMMENDATION: Require Creative to update its project and performance
    management plans to reflect the changes in the modification.

   	 RESPONSE: CLP’s current project and performance management plan (PMP) was
      updated on July 22, 2013. When the current modification to CLP is complete, Creative



                                                                                             17
                                                                                      Appendix II


       Associates International, Inc. will update the PMP, with the assistance of YMEP, within
       30 days and submit to USAID/Yemen for concurrence, November 18, 2013.

3.	 RECOMMENDATION: Perform a documented review of its standard operating procedures
    with the Yemen Monitoring and Evaluation Project (YMEP), and if necessary, amend the
    procedures to improve the communication of key findings.

   	 RESPONSE: USAID/Yemen, with YMEP, reviewed the standard operating procedures
      (SOP) for communication of key findings. Based on the review, YMEP modified the
      SOPs with a focus on disseminating key findings quickly and accurately. They also track
      the resolution of the key findings, as necessary.

4.	 RECOMMENDATION: Require Creative to implement a PMP that includes YMEP’s role,
    authorities, and responsibilities as third-party monitor for the Community Livelihoods
    Project, as outlined in the missions’ procedures.

   	 RESPONSE: USAID/Yemen thought that this recommendation would be useful for all
      implementing partners and as such, asked YMEP to develop SOPs that clarified the role
      of YMEP with the implementing partners when developing and implementing their
      PMPs. The SOP has been completed and the standardized PMP format for
      USAID/Yemen is under review. USAID/Yemen utilized its Quarterly Partner Meeting,
      which was held October 3, 2013, to emphasis the role of YMEP as USAID’s monitoring
      team. Specifically for CLP, YMEP will assist CLP with their PMP once the modification
      reflecting the changes in the scope of work is completed, by November 18, 2013.

5.	 RECOMMENDATION: Require Creative to update its PMP to include a control system to
    validate the delivery of goods.

   	 RESPONSE: Since the audit, CLP has tightened internal controls to include the
      inspection and acceptance of goods and services procured upon delivery and/or
      installation. CLP’s Purchase Orders include statements on warranty and service and
      repair, and have been updated to reflect a reasonable timeframe after delivery and/or
      completion of installation to inspect the services and goods, and to reject acceptance if
      they do not conform to the specification of the award. Further, recovery of the rejected
      item(s) shall be the sole responsibility of the supplier. An inspection and acceptance
      report (comprised of technical specifications, checklists, and written reports) is prepared
      by qualified CLP technical staff (e.g. medical professionals; construction engineers) to
      confirm items that meet the required standards, as well to reject those that are inadequate.
      Inspection and acceptance reports are submitted to CLP sector leads upon completion and
      are made available to USAID/YMEP. CLP’s procurement policies and procedures have
      been updated to document this process.


                                                                                               18
                                                                                        Appendix II


   	 In cases of rehabilitation, CLP engineers regularly monitor the work as it progresses and
      conducts an inspection upon completion. Status reports are sent to CLP team leaders
      who, in conjunction with engineers, determine corrective measures to be taken, if any.
      This includes establishing committees comprised of additional technical experts, as
      necessary. Corrective measures are presented to the vendor/supplier to ensure that
      implementation is conducted in accordance with required specifications. Final
      status/inspection and acceptance reports are shared with CLP’s Procurement Unit who, in
      turn, contacts the vendors/suppliers should contractual documents, such as Purchase
      Orders, require modifications. The inspection and acceptance report (comprised of
      technical specifications, checklists, and written reports, as necessary) are maintained by
      the CLP Procurement Unit and becomes part of the vendor’s/supplier’s file. CLP
      Finance withholds final payment to contractors (e.g. building rehabilitation) until a
      second or final review/inspection of the deliverables is conducted.

6.	 RECOMMENDATION: Require Creative to update its PMP to clearly delineate its
    responsibility of monitoring project activities and reporting findings in an accurate, timely
    fashion.

   	 RESPONSE: Creative/CLP’s Monitoring and Evaluation (M&E) Unit has rectified this
      by developing a more coherent data collection and storage system that provides more
      accurate data and continues to improve monitoring of field activities. This weakness was
      noted during the November 2012 DQA report for some indicators, especially training
      data. Procedures for data collection have been documented in the Performance Indicator
      Reference Sheets (PIRS). The CLP M&E Unit revised the monitoring instruments to
      ensure monitoring of project activities while providing corrective feedback to CLP’s
      technical sectors. In addition, the M&E Unit developed a comprehensive data collection
      and storage system that accounts for the accuracy and timeliness of data assembly and
      report findings. The data collection and management system process will be included in
      the November 18, 2013 PMP and YMEP will monitor the development and progress of
      the PMP, PIRS and DQAs.

7.	 RECOMMENDATION: Require Creative to improve its data reporting by consolidating the
    data system, implementing a procedure manual to formalize data collection, and
    implementing a data validation system.

   	 RESPONSE: CLP has finalized a new data collection and management system, which
      reduces errors in reporting and ensures timely reporting. Since it is automated, output
      data is automatically generated from the supporting documents entered into the system,
      thus eliminating multiple data systems. The new system also makes verification easier as
      each data is directly linked to supporting documents. CLP has documented procedures for
      data collection in the PIRS. In addition, CLP has revised the M&E procedures manual,


                                                                                                    19
                                                                                   Appendix II


       which will correspond with the updated performance management plan in October 2013.
       The Data Collection, Management and Reporting manual was approved by USAID
       Mission and YMEP on September 28, 2013.

8.	 RECOMMENDATION: Deobligate funds associated with activities eliminated from the
    project.

   	 RESPONSE: As of July 2013, Creative submitted a Program Element Financial update.
      The governance sector activities were zeroed out as of December 2012 and there are no
      remaining funds supporting this Element. CLP sector activities in Economic
      Development and Health will end in September 2013 and October 2013 respectively,
      using funds obligated to those Program Elements. If there are any funds left after
      completion of the health and economic development activities, USAID will work with
      CLP to deobligate these funds by December 31, 2013.

9.	 RECOMMENDATION: Conduct a written analysis to determine whether the project would
    benefit from creating a new funds control system. If so, it should implement the system to
    track funds for the remainder of the project.

   	 RESPONSE: Since the payment method used is the Letter of Credit, the Mission does
      not approve payment vouchers. To overcome this issue, the Mission, working closely
      with the Agreement Officer, will modify the agreement requesting the contractor to
      include the correct funding upon submitting each invoice; contact and request from
      USAID/Washington’s Letter of Credit Office to use the funding mentioned in the
      invoice; and at the end of the project the mission will coordinate with Cairo and
      Washington to reconcile the previous disbursements. We anticipate the modification to
      be completed by October 18, 2013.

The Mission has reached a management decision on recommendations 1, 2, 4, 6 and 9 and
recommendations 3, 5, 7 and 8 have been fully implemented.




                                                                                            20
Figure 3. Map of Activities Implemented Before the Revolution (Unaudited)




    Source for both maps: Creative Associates International Inc.




Figure 4. Map of Activities Implemented After the Revolution (Unaudited)
U.S. Agency for International Development 

       Office of Inspector General 

      1300 Pennsylvania Avenue, NW 

          Washington, DC 20523 

            Tel: 202-712-1150 

            Fax: 202-216-3047 

           http://oig.usaid.gov
